WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5593

Denis Akaazua Walker Novak Legal Group, et al.

(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.

® lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Mortgage Electronic Registration Systems, Inc.

Please check the appropriate box:
© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
© Lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
At Serk’s Office. 1 Firs{ Street, NE, Washington, D.C, 20543).

Signature: w

Date: September 9, 2021
(Type or print) Name Douglas E. Winter
© mre. O Ms. © Mrs. O Miss

Firm Bryan Cave Leighton Paisner LLP

Address 1155 F Street, N.W.

City & State Washington DC Zip 20004
Phone (202) 508-6072 Email dewinter@bclplaw.com

A copy of this form muzt be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Denis Akaazua

832 Eastem Avenue, S.E.
Grand Rapids Mi 49507
(appearing pro se)
